No. 19-351
IN THE

Supreme Court of the lniteb States
FEDERAL REPUBLIC OF GERMANY, ET AL.,

Petitioners,
V.

ALAN PHILIPP, ET AL.,

Respondents.
On Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

CERTIFICATE OF SERVICE
I, D. Hunter Smith, a member of the Bar of this Court, certify that on this 29th
day of October, 2020, I caused to be served by U.S. Mail three copies of the Brief of
Peter Toren as Amicus Curiae in Support of Respondents on each of the following
counsel:
Jonathan M. Freiman
Counsel of Record
Wiggin and Dana LLP
265 Church Street
P.O. Box 1832
New Haven, CT 06508-1832
(203) 498-4400
jfrieman@wiggin.com
Counsel for Petitioners

Nicholas M. O'Donnell
Counsel of Record
Sullivan & Worcester LLP
One Post Office Square
Boston, MA 02109
(617) 338-2814
nodonnell@sandw.com
Counsel for Respondents

I further certify that all parties required to be served have been served.

7
%47
D. Hunter Smith

